February 8, 2013

MEMORANDUM FOR:	 Fred Stephens
                 Deputy Assistant Secretary for Administration


FROM:                         Andrew Katsaros
                              Assistant Inspector General for Audit

SUBJECT:	                     Audit of the Department’s Management of Classification Policies and
                              Procedures

We are initiating an audit of the Department’s management of classification policies and
procedures. This is the first of two reviews required by Public Law 111-258, “Reducing Over-
Classification Act,” enacted October 7, 2010.

During the audit, we will assess whether applicable classification policies, procedures, rules,
regulations have been adopted, followed, and effectively administered. We will also identify
policies, procedures, rules, regulations, and management practices that may be contributing to
persistent misclassification of material. The audit will include reviews of relevant classification
policies and procedures, as well as interviews with appropriate Department and bureau officials.
To comply with this legislative requirement, we must complete this first audit by September 30,
2013.

We will contact the audit liaison to arrange an entrance conference. If you have any questions
regarding this review, please contact me at (202) 482-7859 or Mark Zabarsky, Audit Director, at
(202) 482-3884. We thank you in advance for your cooperation during this audit.

cc:	   Thomas R. Predmore, Director, Office of Security
       Thomas de Seve, Assistant Director, Client Security Services Division
       Eric Dorsey, Assistant Director, Counterespionage Division
       George Lee, Assistant Director, Investigations and Intelligence Division
